NORA FRIMANN, CITY ATTORNEY

Malgorzata Laskowska
Sr. Deputy City Attorney
Direct Line: (408) 535-1965

July 1, 2021
Via Electronic Filing and Federal Express

Hon Scott S. Harris, Clerk
SUPREME COURT OF THE UNITED STATES
One First Street, N.E.
Washington, D.C. 20543-0001

Re:

Hotop, et al. v. City of San Jose
Docket No. 20-1755

Dear Mr. Harris:
This letter is submitted on behalf of respondent City of San Jose.
Petitioners Hotop et al. have filed a petition for a writ of certiorari, docketed on
June 16, 2021. The City’s response to the petition is due on July 16, 2021. The City
respectfully requests a 45-day extension of time, to and including August 30, 2021, in
which to file a response. The City requests and extension because amici curiae notified
the City that they intend to file a brief to support the petition. The extension would give
the City time to address that brief, if needed, in the brief in opposition. Additionally, the
undersigned counsel of record in this matter has a pre-planned, pre-paid time off work
from August 2 to August 13, 2021.
I certify that I am a member of the Bar of the Supreme Court of the United States.
Very truly yours,
NORA FRIMANN, City Attorney
By: ______________________________
MALGORZATA LASKOWSKA
Sr. Deputy City Attorney
MKL/blg
Cc:
Frank A. Weiser, Esq.

200 East Santa Clara Street, 16th Floor Tower, San José, CA 95113-1905 tel (408) 535-1900 fax (408) 998-3131

1835244

